HHS/OIG, Audit - "Review of State Childrens Health Insurance Program
Eligibility in Florida," (A-04-06-00021)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of State Childrens Health Insurance Program Eligibility in Florida," (A-04-06-00021)
July 20, 2007
Complete
Text of Report is available in PDF format (1.25 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
From January 1 through June 30, 2005, the State agency (1)
made some State Childrens Health Insurance Program (SCHIP) payments on behalf
of beneficiaries who did not meet Federal and State eligibility requirements and
(2) did not always adequately document eligibility determinations.  For the
6-month audit period, we estimated that the State agency made SCHIP payments totaling between $18,776,786 and $32,583,603 (Federal
share) on behalf of ineligible beneficiaries and that case file documentation
did not adequately support eligibility determinations for an additional payments totaling between $4,130,356 and $11,568,962 (Federal
share).
We recommended that the State agency use the results of
this review to help ensure compliance with Federal and State SCHIP eligibility
requirements by (1) reemphasizing to Florida Healthy Kids Corporation (FHKC)
employees the need to adequately verify eligibility information,
(2) minimizing the
time period between determination of Medicaid eligibility and disenrollment of
the applicant from SCHIP, and (3) reemphasizing to FHKC employees the need to
maintain appropriate documentation in all case files.  We also recommended that
the State agency work with CMS to resolve the estimated improper payments of at
least $18,776,786 identified in the review.  Neither FHKC nor the State agency
specifically addressed these recommendations.